      Semiannual
        Report to
        Congress
April 1, 2009–September 30, 2009
                    OIG-CA-10-002


       Office of Inspector General
      Department of the Treasury
Highlights
During this semiannual reporting period, the Office of Audit issued 19 products, which included
questioned costs of nearly $1 million, and work by the Office of Investigations resulted in two arrests;
approximately $235,000 in court-ordered fines, restitution, and recoveries; and 27 personnel or
administrative actions. Some of our significant results for the period are described below.

   • We completed material loss reviews of six failed financial institutions that together resulted in a
       loss to the federal deposit insurance fund of approximately $2.48 billion. High concentrations in
       certain types of loans (including high-risk single-family residential loans and construction and
       land loans), exacerbated by significant drops in real estate values, were a key cause of five of the
       institutions’ failures. In the other case, the institution’s failure resulted from significant losses in
       its portfolio of preferred stock holdings in Fannie Mae and Freddie Mac. We found that the
       Office of Thrift Supervision and the Office of the Comptroller of the Currency (OCC) identified
       operational problems but were slow to take enforcement action to correct the problems.
   • We issued a report on the challenges that Treasury’s Office of the Fiscal Assistant Secretary has
       experienced in implementing a new grant in lieu of tax credit program authorized under the
       American Recovery and Reinvestment Act. The program calls for Treasury to distribute an
       estimated $16.5 billion in energy grants for certain specified energy property. Although the
       American Recovery and Reinvestment Act was intended to jumpstart the economy, we found—
       more than 5 months after the act was signed into law—that while Treasury had made progress, a
       fully operational program had yet to be established.
   • On May 5, 2009, Inspector General Thorson and the inspectors general for the Federal Deposit
       Insurance Corporation and Federal Reserve System testified before the Subcommittee on
       Oversight and Investigations of the House Committee on Financial Services on the current
       threshold for material loss reviews of failed banks. In January 2009, the inspectors general sent a
       letter to the committee suggesting that the current threshold of $25 million, established in 1991,
       be raised to between $300 million and $500 million, which would free up resources for other
       work. Congress is considering legislation, H.R. 3330, that would, among other things, raise the
       threshold loss for material loss reviews to $200 million. As of September 30, 2009, H.R. 3330
       had passed the House and been referred to the Senate Committee on Banking, Housing, and
       Urban Affairs.
   • On June 12, 2009, a former OCC employee pled guilty to federal theft violations stemming from
       his scheme to defraud OCC by exploiting a weakness in its travel management system. The
       former employee was sentenced to 60 days of house arrest, 36 months of supervised probation,
       and 25 hours of community service and was ordered to pay $25,311 in restitution to OCC.




           Treasury Office of Inspector General Semiannual Report—September 2009                              i
Message From the Inspector General
Over the past 6 months, the Department of the Treasury has continued to play a key role in the federal
government’s efforts to maintain the stability of the financial markets and stimulate an economic
recovery. Through the Housing and Economic Recovery Act, Treasury made significant investments in
mortgage giants Fannie Mae and Freddie Mac. Through the Emergency Economic Stabilization Act,
more commonly known as the Troubled Assets Relief Program (TARP), Treasury has made significant
investments in hundreds of financial institutions as well as in General Motors, Chrysler, and AIG. The
Department has established several other programs to carry out its TARP authorities, including the
Public-Private Investment Program and the Home Affordable Modification Program.

With passage of the American Recovery and Reinvestment Act, Treasury became responsible for
administering an estimated $150 billion in Recovery Act direct relief, including an estimated $20 billion
for low-income housing and renewable energy property grants in lieu of tax credit programs. Suffice it
to say that Treasury has taken on significant new challenges and new responsibilities that have had and
will continue to have an enormous impact on our economy.

The Recovery Act also established the Recovery Act Accountability and Transparency Board. The
Board comprises 12 inspectors general, of which I am one. It is responsible for maintaining
Recovery.gov as well as coordinating oversight of the $787 billion in Recovery Act funding. We, along
with the Treasury Inspector General for Tax Administration, are committed to providing effective
oversight of Treasury’s Recovery Act programs. Toward that end, our office has already issued one
report that identified weaknesses in Treasury’s efforts to implement the renewable energy property grant
in lieu of tax credit program. We also have a number of Recovery Act audits in progress. While we have
noted problems, I do want to recognize the strong commitment by Deputy Secretary Wolin and Senior
Accountable Officer Tangherlini to implementing effective controls over Recovery Act funds.

Just as this has been a challenging time for the Department, it has been a challenging time for my office.
In addition to our Recovery Act oversight work, by law my office must perform a material loss review
(MLR) within 6 months of any Treasury-regulated financial institution failure that causes a material loss
($25 million or more) to the Federal Deposit Insurance Corporation’s deposit insurance fund. The
purpose of an MLR is to determine why the financial institution failed and to assess the regulator’s
supervision.

Since September 2007, 39 Treasury-regulated institutions have failed, with estimated losses to the
deposit insurance fund exceeding $27 billion. Predictions are that many more financial institutions will
fail over the next couple of years. During fiscal year 2009, we completed an unprecedented 10 MLRs
and, as of this writing, have another 19 in progress. This level of MLR work threatened to overwhelm
our available resources. Fortunately, Congress appropriated additional resources in our fiscal year 2009
budget to enable us to hire more staff. We have been very successful in hiring many highly qualified new
employees in a very short time.



          Treasury Office of Inspector General Semiannual Report—September 2009                             ii
                                                             Message From the Inspector General

Our MLR work has consistently identified irresponsible lending and unmanaged risk-taking by the
financial institutions and weaknesses in supervision by their regulators. I do want to note that both
Treasury regulators, the Office of the Comptroller of the Currency and the Office of Thrift Supervision,
have been very responsive to the findings and recommendations from our MLRs. As the administration
and Congress work toward regulatory reform, our MLR results and those of other offices of inspector
general for financial regulators should be considered in determining how depository institutions should
be regulated going forward.

In closing, I would like to recognize the hard work and dedication of my staff in meeting the challenges
that have been presented. Especially noteworthy is the fact that we have not missed our MLR mandate
even one time since the financial crisis began. Our work continues to be of the highest caliber, and our
results have had and will continue to have a significant impact in helping the Department strengthen its
programs and operations. I look forward to continuing to work with Secretary Geithner and Deputy
Secretary Wolin in meeting the demands and challenges that remain ahead of us.




Eric M. Thorson
Inspector General




          Treasury Office of Inspector General Semiannual Report—September 2009                        iii
This page intentionally left blank.
Contents
Highlights ..................................................................................................................................... i 
Message From the Inspector General ...................................................................................... ii 
Overview of the Office of Inspector General ............................................................................ 1 
Treasury Management and Performance Challenges ............................................................. 2 
Significant Audits and Evaluations .......................................................................................... 6 
       Financial Management .................................................................................................................................6 
       Information Technology................................................................................................................................8 
       Programs and Operations ............................................................................................................................8 
           Bank Failures and Material Loss Reviews ...............................................................................................8 
           Recovery Act Audits ..............................................................................................................................15 
           Other Performance Audits .....................................................................................................................16 
Significant Investigations ........................................................................................................ 18 
Other OIG Accomplishments and Activity ............................................................................. 20 
Statistical Summary ................................................................................................................. 22 
       Summary of OIG Activity ............................................................................................................................22 
       Significant Unimplemented Recommendations ..........................................................................................23 
       Summary of Instances Where Information Was Refused ...........................................................................25 
       Listing of Audit and Evaluation Reports Issued ..........................................................................................25 
       Audit Reports Issued With Questioned Costs ............................................................................................27 
       Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................27 
       Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................27 
       Significant Revised Management Decisions ..............................................................................................28 
       Significant Disagreed Management Decisions ...........................................................................................28 
References to the Inspector General Act ............................................................................... 29 
Abbreviations ............................................................................................................................ 30 
This page intentionally left blank.
Overview of the Office of                                  The Office of Investigations performs
Inspector General                                          investigations and conducts initiatives to detect
                                                           and prevent fraud, waste, and abuse in Treasury
The Department of the Treasury’s Office of                 programs and operations. The Assistant
Inspector General (OIG) was established                    Inspector General for Investigations is
pursuant to the 1988 amendment to the                      responsible for all investigations relating to
Inspector General Act of 1978. 1 OIG is headed             Treasury programs and operations and integrity
by an Inspector General appointed by the                   oversight reviews of select Treasury bureaus.
President of the United States, with the advice
and consent of the Senate. Serving with the                The Office of Counsel (1) processes all
Inspector General in the immediate office is a             Freedom of Information Act/Privacy Act
Deputy Inspector General. OIG performs                     requests and administrative appeals on behalf of
independent, objective reviews of Treasury                 OIG; (2) processes all discovery requests for
programs and operations, except for those of               information held by OIG; (3) represents OIG in
the Internal Revenue Service (IRS) and the                 administrative Equal Employment Opportunity
Troubled Assets Relief Program (TARP), and                 and Merit Systems Protection Board
keeps the Secretary of the Treasury and                    proceedings; (4) conducts ethics training and
Congress fully informed of problems,                       provides ethics advice to OIG employees and
deficiencies, and the need for corrective action.          ensures OIG compliance with financial
The Treasury Inspector General for Tax                     disclosure requirements; (5) reviews proposed
Administration performs oversight related to               legislation and regulations relating to the
IRS. A special inspector general and the                   Department; (6) reviews and issues
Government Accountability Office (GAO)                     administrative subpoenas; (7) reviews and
perform oversight related to TARP.                         responds to all Giglio requests for information
                                                           about Treasury personnel who may testify in
OIG is organized into four divisions: (1) Office           trials; and (8) provides legal advice to the other
of Audit, (2) Office of Investigations, (3) Office         OIG divisions.
of Counsel, and (4) Office of Management.
OIG is headquartered in Washington, DC, and                The Office of Management provides services to
has an audit office in Boston, Massachusetts.              maintain the OIG administrative infrastructure.
                                                           It also manages the Treasury OIG Hotline to
The Office of Audit performs and supervises                facilitate reporting of allegations involving
audits, attestation engagements, and evaluations.          Treasury programs and activities. The Assistant
The Assistant Inspector General for Audit has              Inspector General for Management oversees
two deputies. One is primarily responsible for             these functions.
performance audits, and the other is primarily
responsible for financial management,                      As of September 30, 2009, OIG had 117 full-
information technology, and financial assistance           time staff. OIG’s fiscal year 2009 appropriation
audits.                                                    was $26.125 million.

1   5 U.S.C. app. 3.


               Treasury Office of Inspector General Semiannual Report—September 2009                       1
                                                        securities issued by Fannie Mae and Freddie
Treasury Management and                                 Mac. Even with this assistance, both entities
Performance Challenges                                  remain in a weakened financial condition and
                                                        may require more assistance.
In accordance with the Reports Consolidation
Act of 2000, the Treasury Inspector General             As the turmoil in the financial markets
annually provides the Secretary of the Treasury         increased, Treasury and the Federal Reserve
with his perspective on the most serious                took additional actions to deal with the
management and performance challenges facing            situation, including rescuing Bear Stearns and
the Department. The Secretary includes these            AIG. Treasury also sought and obtained
challenges in Treasury’s annual agency financial        additional authorities through passage of the
report. In a memorandum to Secretary Geithner           Emergency Economic Stabilization Act (EESA)
dated October 29, 2009, Inspector General               in October 2008. EESA, commonly known as
Thorson reported one new challenge—                     TARP, gave the Treasury Secretary $700 billion
management of American Recovery and                     to, among other things, (1) purchase capital in
Reinvestment Act (Recovery Act) programs—               qualifying U.S.-controlled financial institutions
and four challenges from last year. Two                 and (2) buy, maintain, and sell toxic mortgage-
previously reported challenges were removed.            related assets from financial institutions.
The following is an abridged description of the
challenges reported and removed.                        After EESA was enacted, the Department
                                                        aggressively moved forward to loosen the credit
Management of Treasury’s New                            market by purchasing senior preferred stock in
Authorities Related to Distressed                       nine of the nation’s largest financial institutions.
                                                        Since then, hundreds of other financial
Financial Markets (Repeat Challenge)                    institutions have also participated in the Capital
Treasury, along with the Federal Reserve, the           Purchase Program (CPP). To date, some CPP
Federal Deposit Insurance Corporation (FDIC),           participants have repurchased preferred shares
and the Federal Housing Finance Agency, has             and warrants totaling more than $70 billion.
taken unprecedented actions to address the              However, a small but growing number of CPP
current financial crisis. To assist in those efforts,   recipients are failing to make their 5 percent
Congress passed the Housing and Economic                dividend payments due to Treasury.
Recovery Act in July 2008, which gave Treasury
broad new authorities to address the distressed         EESA established a special inspector general for
financial condition of Fannie Mae and Freddie           TARP and imposed oversight and periodic
Mac. Less than 6 weeks later, the Federal               reporting requirements on both the special
Housing Finance Agency put both entities into           inspector general and GAO. Under EESA,
conservatorship. According to Treasury data, as         GAO is also responsible for performing the
of June 30, 2009, Treasury had purchased                annual financial statement audit of TARP.
$86.5 billion in preferred stock of the two             Recently, GAO reported that at the 1-year
entities to cover their continuing losses and           mark, TARP in general and CPP in particular,
maintain a positive net worth. Treasury also            along with other efforts by the Federal Reserve
purchased $154.2 billion of mortgage-backed             and FDIC, had made important contributions


           Treasury Office of Inspector General Semiannual Report—September 2009                           2
                                              Treasury Management and Performance Challenges

to help stabilize credit markets. However, GAO         Office of the Comptroller of the Currency
also reported that many challenges and                 (OCC) and Office of Thrift Supervision (OTS)
uncertainties remain. GAO further noted that           did not identify early or force timely correction
other programs, such as the Public-Private             of unsafe and unsound practices by institutions
Investment Program and the Home Affordable             under their supervision. The irresponsible
Modification Program, still face implementation        lending practices of many institutions are now
or operational challenges. GAO recommended             well-recognized—including reliance on risky
that as Treasury considers further action under        products, such as option adjustable rate
TARP, including whether to extend the                  mortgages, and degradation of underwriting
program beyond December 31, 2009, the                  standards. At the same time, financial
Department should evaluate the program in the          institutions engaged in other high-risk activities,
broader context of efforts by the Federal              including high asset concentrations in
Reserve and FDIC to stabilize the financial            commercial real estate and overreliance on
system.                                                unpredictable brokered deposits to fund rapid
                                                       growth. There have also been instances of
The Department is working through several              certain ailing thrifts backdating capital
significant accounting issues involving some           contributions.
very complex TARP transactions. As a result,
the Department, in consultation with our office        The banking industry will continue to be
and GAO, has requested an extension from the           stressed over the next several years. The next
Office of Management and Budget (OMB) for              substantial stresses to financial markets may
its fiscal year 2009 annual financial reporting        result from troubled credit card debt and
submission.                                            further deterioration in commercial real estate
                                                       loans and could significantly affect financial
As conditions improve, Treasury will need to           institutions that had limited exposure to the
work with its partners to disassemble the              housing crisis.
structure established to support recovery efforts
and ensure that federal funds no longer needed         Our office is mandated to review failures of
for those efforts are returned in an orderly           Treasury-regulated financial institutions that
manner to the Treasury general fund.                   result in material losses to the deposit insurance
                                                       fund. As of October 29, 2009, we have
Regulation of National Banks and Thrifts               completed 12 such reviews and are engaged in
                                                       19 others. These reviews identify the causes of
(Repeat Challenge)                                     the failures and assess supervision exercised
Since September 2007, 39 Treasury-regulated            over failed institutions. Both OCC and OTS
financial institutions have failed, with estimated     have been responsive to our recommendations
losses to the deposit insurance fund exceeding         for improving supervision. For example, OTS
$27 billion. Even more financial institutions are      has issued guidance addressing concentration
expected to fail over the next 2 years.                issues and the appropriate accounting treatment
                                                       for capital contributions. However, these
Although many factors have contributed to the          reviews do not address the broader supervisory
turmoil in the financial markets, Treasury’s           effectiveness of the federal banking regulators
                                                       as a whole or the effectiveness of the

           Treasury Office of Inspector General Semiannual Report—September 2009                         3
                                            Treasury Management and Performance Challenges

supervisory structure. It is therefore essential      energy property in lieu of tax credits, grants to
that OCC and OTS continue to take a critical          states for low-income housing projects in lieu of
look at their supervisory processes to identify       tax credits, increased Community Development
why those processes did not prevent or mitigate       Financial Institutions Fund grants and tax
the practices that led to the current crisis and      credits, economic recovery payments to social
what can be done to better protect the financial      security beneficiaries and others, and payments
health of the banking industry and consumers          to U.S. territories for distribution to their
going forward.                                        citizens. Many of these programs are new to
                                                      Treasury and involve very large dollar amounts.
Recognizing that the focus of EESA and the            As a result, Treasury faces immense challenges
Recovery Act is on the current crisis, another        in ensuring that the programs achieve their
consideration is the need to identify, monitor,       intended purposes, provide for accountability
and manage emerging domestic and global               and transparency, and are free from fraud and
systemic economic risks. Moreover, these              abuse.
emerging risks may go beyond the current U.S.
regulatory structure. Treasury and its regulatory     Treasury’s Recovery Act grants in lieu of tax
partners must continue to diligently monitor          credit programs—for specified energy property
both regulated and unregulated products and           and to states for low-income housing projects—
markets for new systemic risks that may require       are estimated to cost almost $20 billion over
action.                                               their lives. Treasury has dedicated only a small
                                                      number of staff to award and monitor these
Finally, both the administration and Congress         funds. We have concerns that the current
are considering proposals for regulatory reform,      staffing level is not commensurate with the size
ranging from the creation of a single financial       of these programs.
regulator to a more limited approach calling for
oversight councils composed of the existing           The Deputy Secretary and the Senior
regulators and consolidating OTS and OCC.             Accountability Officer have shown a strong
Also under consideration is transferring              commitment to implementing an effective
responsibility for consumer financial protection      control structure over Recovery Act activities
functions to a new regulatory agency. Treasury,       and strong support for our oversight effort.
OCC, and OTS will need to work in concert
with the other affected federal bank regulators       Management of Capital Investments
to ensure a smooth and effective transition to
                                                      (Repeat Challenge)
the new regulatory structure that emerges.
                                                      Managing large capital investments, particularly
Management of Recovery Act Programs                   information technology investments, is a
                                                      difficult challenge for any organization, whether
(New Challenge)
                                                      public or private. In prior years, we have
Treasury is responsible for overseeing an             reported on a number of capital investment
estimated $150 billion of Recovery Act funding        projects that either failed or had serious
and tax relief. Treasury’s oversight                  problems. Treasury is now making the transition
responsibilities include grants for specified         to a new, mission-critical telecommunications


          Treasury Office of Inspector General Semiannual Report—September 2009                        4
                                               Treasury Management and Performance Challenges

system, TNet. The overall value of the TNet             institutions and their regulators may decrease
contract is estimated at $270 million. The              their attention to BSA and OFAC program
transition, however, is now nearly 2 years late.        compliance as they address safety and
Treasury must exercise continuous vigilance in          soundness concerns. As the administration and
managing its capital investments.                       Congress consider what could be sweeping
                                                        changes to the financial regulatory structure,
Anti-Money Laundering and Terrorist                     those changes must ensure that BSA and OFAC
                                                        compliance examination coverage is sufficient.
Financing/Bank Secrecy Act
Enforcement (Repeat Challenge)
                                                        Challenges Removed
Treasury faces unique challenges in carrying out
                                                        We removed corporate management as an
its responsibilities under the Bank Secrecy Act
                                                        overarching management challenge, first
(BSA) and USA Patriot Act to prevent and
                                                        identified as a challenge in 2004, because the
detect money laundering and terrorist financing.
                                                        Department has made significant progress in
Although the Financial Crimes Enforcement
                                                        building up a sustainable corporate control
Network (FinCEN) is responsible for
                                                        structure. We also removed information security
administering BSA, a large number of other
                                                        as a management and performance challenge,
federal and state entities participate in efforts to
                                                        first identified in 2001, because Treasury has
ensure compliance with BSA. Many of these
                                                        made significant strides in improving and
entities also participate in efforts to ensure
                                                        institutionalizing its information security
compliance with U.S. foreign sanction programs
                                                        controls.
administered by Treasury’s Office of Foreign
Assets Control (OFAC).

FinCEN and OFAC have entered into
memoranda of understanding with many federal
and state regulators in an attempt to build a
consistent and effective process. However,
these instruments are nonbinding and carry no
penalties for violations.

Although BSA reports are critical to law
enforcement, past audits have shown that many
contain incomplete or erroneous data and that
examination coverage by financial institution
regulators of BSA compliance has been limited.

Given the criticality of this management
challenge to the Department’s mission, we
continue to consider BSA and OFAC programs
as inherently high-risk. Adding to this risk in the
current environment is the risk that financial


           Treasury Office of Inspector General Semiannual Report—September 2009                     5
                                                                                           Treasury and OMB–designated entities. In this
Significant Audits and                                                                     regard, OMB has designated IRS for annual
Evaluations                                                                                financial statement audits. The financial
                                                                                           statements of certain other Treasury component
Financial Management                                                                       entities are audited pursuant to other
                                                                                           requirements or due to their materiality to
Financial Audits                                                                           Treasury’s consolidated financial statements or
                                                                                           other reasons. The following table shows audit
The Chief Financial Officers Act, as amended                                               results for fiscal years 2008 and 2007.
by the Government Management Reform Act,
requires annual financial statement audits of

Treasury-audited financial statements and related audits
                                      Fiscal year 2008 audit results                                    Fiscal year 2007 audit results

                                                         Material           Other                                          Material                  Other
                                                         weak-              significant                                    weak-                     significant
Entity                                Opinion            nesses             deficiencies                Opinion            nesses                    deficiencies
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury              UQ                 1                                       2                UQ                        1                     2
Internal Revenue Service (A)            UQ                 3                                       1                UQ                        4                     1
Other required audits
Bureau of Engraving and Printing                  UQ                  0                            0                UQ                        0                     0
Community Development
Financial Institutions Fund (B)                   UQ                  0                            2                 D                        0                     2
Office of DC Pensions                             UQ                  0                            0                UQ                        0                     0
Exchange Stabilization Fund                       UQ                  1                            1                UQ                        0                     0
Federal Financing Bank                            UQ                  0                            0                UQ                        0                     0
Office of the Comptroller of the
Currency                                          UQ                  0                            0                UQ                        0                     1
Office of Thrift Supervision                      UQ                  0                            0                UQ                        0                     0
Treasury Forfeiture Fund                          UQ                  0                            0                UQ                        0                     2
Mint
Financial statements                              UQ                  0                            2                UQ                        1                     0
Custodial gold and silver
reserves                                          UQ                  0                            0                UQ                        0                     0
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                  UQ                 0                                 0                UQ                        0                     0
Government trust funds                        UQ                 0                                 1                UQ                        0                     0
Financial Management Service
   Treasury-managed accounts                  UQ                 0                                 1                UQ                        0                     0
   Operating cash of the federal
   government                                 UQ                 0                                 0                UQ                        0                     1
Management-initiated audit
FinCEN                                        UQ                   0                              0                  UQ                        1                    0
UQ       Unqualified opinion
D        Disclaimer of opinion
(A)      Audited by GAO
(B)      Audit of the Statement of Financial Position only for fiscal year 2008, full-scope audit of all financial statements for fiscal year 2007




                 Treasury Office of Inspector General Semiannual Report—September 2009                                                                          6
                                                                                          Significant Audits and Evaluations

Audits of the fiscal year 2009 financial                                       reported in connection with the audit of the
statements or schedules of the Department and                                  Department’s fiscal year 2008 consolidated
component reporting entities were in progress                                  financial statements. The status of these
at the end of this semiannual reporting period.                                noncompliances, including progress in
                                                                               implementing remediation plans, will be
The following instances of noncompliance with                                  evaluated as part of the audit of Treasury’s fiscal
the Federal Financial Management                                               year 2009 financial statements.
Improvement Act, which all relate to IRS, were

                                                                                                                         Type of
Condition                                                                                                                noncompliance
Financial management systems do not provide timely and reliable information for financial reporting and preparation of   Federal financial
financial statements. IRS had to rely on extensive compensating procedures to generate reliable financial statements.    management systems
(first reported in fiscal year 1997)                                                                                     requirements
Deficiencies were identified in information security controls, resulting in increased risk of unauthorized individuals   Federal financial
accessing, altering, or abusing proprietary IRS programs and electronic data and taxpayer information. (first reported   management systems
in fiscal year 1997)                                                                                                     requirements
Material weaknesses related to controls over unpaid tax assessments exist. (first reported in fiscal year 1997)          Federal accounting
                                                                                                                         standards
Financial management system cannot produce reliable, current information on the costs of IRS activities to support       Federal accounting
decision making on a routine basis, consistent with the requirements of Statement of Federal Financial Accounting        standards
Standards No. 4, Managerial Cost Accounting Standards. (first reported in fiscal year 1998)
IRS’s core general ledger system for tax-related activities does not comply with the U.S. Government Standard            U.S. Government
General Ledger at the transaction level and also does not post transactions in conformance with Standard General         Standard General Ledger
Ledger posting models. (first reported in fiscal year 1997)




Reports on the Processing of                                                   operation as of June 30, 2009; (2) the controls
                                                                               were suitably designed; and (3) the controls
Transactions by BPD
                                                                               tested by the IPA were effective from July 1,
Three reports described below were completed                                   2008, to June 30, 2009. The IPA noted no
in support of the audit of Treasury’s fiscal year                              instances of reportable noncompliance with
2009 consolidated financial statements and the                                 laws and regulations tested. (OIG-09-045)
financial statement audits of certain other
federal agencies.                                                              An IPA under our supervision performed
                                                                               examinations that covered the general computer
An independent public accountant (IPA) under                                   and investment/redemption processing controls
our supervision examined the accounting                                        related to BPD’s transactions processing of
processing and general computer controls                                       investment accounts for various federal agencies
related to financial management services                                       and the general computer and trust fund
provided to various federal agencies by the                                    management processing controls related to
Bureau of the Public Debt’s (BPD)                                              BPD’s transactions processing of investment
Administrative Resource Center. The IPA                                        accounts of various federal and state agencies.
found that (1) the description of controls for                                 The IPA found that (1) BPD’s description of
these activities fairly presented, in all material                             these controls fairly presented, in all material
respects, the controls that had been placed in                                 respects, the controls that had been placed in

              Treasury Office of Inspector General Semiannual Report—September 2009                                                            7
                                                              Significant Audits and Evaluations

operation as of July 31, 2009; (2) the controls       was not effective, and security controls over a
were suitably designed; and (3) the controls          legacy system were inadequate. FMS concurred
tested by the IPA were effective during the           with our recommendations to address these
period August 1, 2008, to July 31, 2009. The          matters. (OIG-CA-09-012)
IPA noted no instances of reportable
noncompliance with the laws and regulations
tested. (OIG-09-049, OIG-09-050)
                                                      Programs and Operations
                                                      Bank Failures and Material Loss Reviews
Information Technology                                OCC and OTS share responsibility with the
                                                      FDIC and the Federal Reserve for regulating
Fiscal Year 2009 Evaluations of Treasury's            and supervising banks and thrifts in the United
FISMA Implementation for Its Intelligence             States. OCC regulates national chartered banks
Program and Non-IRS Collateral National               and OTS regulates thrifts, while FDIC and the
Security Systems                                      Federal Reserve share regulation of state-
We completed two Federal Information                  chartered banks and thrifts. State regulatory
Security Management Act (FISMA)                       authorities may also share responsibility for
independent evaluations during this reporting         regulating and supervising banks and thrifts.
period covering the Department’s intelligence
program and non-IRS collateral national               In 1991, Congress enacted the Federal Deposit
security systems. We found that Treasury              Insurance Corporation Improvement Act
addressed a majority of findings cited in our         (FDICIA) amending the Federal Deposit
prior-year reports. However, we identified 6          Insurance Act following the failures of about
areas in the intelligence program and 8 areas         1,000 banks and thrifts between 1986 and 1990
with the collateral systems where the                 that resulted in billions of dollars in losses to
information security programs and practices           the deposit insurance fund. The amendments
need to be improved. Treasury management              require that banking regulators take specified
concurred with our recommendations to                 supervisory actions when they identify unsafe or
address these matters. Both reports are               unsound practices or conditions.
designated Sensitive But Unclassified. (OIG-09-
051, OIG-CA-09-011)                                   Section 38(k) of FDICIA requires that the
                                                      inspectors general of Treasury, FDIC, and the
FMS’s Database Management Systems Have                Federal Reserve review the failures of
                                                      depository institutions when the estimated loss
Weaknesses in Key Controls
                                                      to the deposit insurance fund becomes material
We determined that Financial Management               (defined as a loss that exceeds the greater of
Service’s(FMS) database management systems            $25 million or 2 percent of the institution’s total
had weaknesses in key security controls over its      assets). As part of the material loss review
database management systems. Specifically,            (MLR), we determine the causes of the failure
database patches were not applied in a timely         and assess the supervision over the institution,
manner, database users were granted excessive         including the implementation of the Prompt
privileges, account and password management           Corrective Action (PCA) provisions in

          Treasury Office of Inspector General Semiannual Report—September 2009                         8
                                                                     Significant Audits and Evaluations

FDICIA; 2 and make recommendations for                       timely examinations and identified operational
preventing any such loss in the future. The                  problems, but were slow to take enforcement
MLR must be completed within 6 months.                       actions to correct the problems. We also noted
                                                             that regulators took the appropriate PCA
Since 2007, FDIC and other regulators have                   actions when warranted but those actions did
closed 133 banks and thrifts. Thirty-nine (39) of            not save the institutions. While it is too soon to
these institutions were regulated by Treasury. In            comment on the effectiveness of the PCA
prior semiannual reports, we reported on 5                   provisions of FDICIA more generally, this is an
MLRs completed during the current crisis.                    area we believe should be examined further.
During the current semi-annual reporting
period, we completed 6 MLRs, 4 supervised by                    OTS-Regulated Institutions Reviewed
OTS and 2 supervised by OCC, which are
described in more detail below. As of                        Downey Savings and Loan Association, FA, of
September 30, 2009, we had 18 ongoing MLRs,                  Newport Beach, California (closed
and we expect additional bank and thrift failures            November 21, 2008; estimated loss to the
in the coming months.                                        deposit insurance fund - $1.4 billion)

From the 11 MLRs completed as of                             The primary causes of Downey’s failure were
September 30, 2009, we have seen several                     the thrift’s high concentrations in single-family
trends emerge. With respect to the causes of                 residential loans, which included concentrations
institutions’ failures, we found overly aggressive           in option adjustable rate mortgage loans,
growth strategies; risky lending products, such              reduced documentation loans, subprime loans,
as option adjustable rate mortgages, coupled                 and loans with layered risk; inadequate risk-
with inadequate risk management and unsound                  monitoring systems; the thrift’s
underwriting; high concentrations in areas such              unresponsiveness to OTS recommendations;
as commercial real estate; and heavy reliance on             and high turnover in the thrift’s management.
more costly wholesale funding, such as Federal               The drop in real estate values in Downey’s
Home Loan Bank loans and brokered deposits.                  markets exacerbated these conditions.
In one instance, we found that a national bank
failed because of the losses incurred with its               OTS conducted an internal failed bank review
preferred stock holdings in Fannie Mae and                   as required by its policy. The OTS review found
Freddie Mac. With respect to supervision, we                 that a more forceful regulatory response is
found that regulators conducted regular and                  warranted when thrifts have concentrations of
                                                             higher-risk nontraditional mortgage products.
2 PCA is a framework of supervisory actions, set forth in    We affirm OTS’s internal findings and the need
12 U.S.C. § 1831, for insured depository institutions that   for corrective action, particularly the need for
are not adequately capitalized. It was intended to ensure
                                                             more definitive guidance on concentration risk
that action is taken when an institution becomes
financially troubled in order to prevent a failure or        for nontraditional mortgage loans and OTS’s
minimize resulting losses. These actions become              authority to address thrifts taking excessive risks
increasingly severe as the institution falls into lower
                                                             in these loan products.
capital categories. The capital categories are well-
capitalized, adequately capitalized, undercapitalized,
significantly undercapitalized, and critically               In addition, we found that OTS did not follow
undercapitalized.                                            its existing guidance for taking enforcement

            Treasury Office of Inspector General Semiannual Report—September 2009                             9
                                                              Significant Audits and Evaluations

action when it issued an informal rather than         a percentage of capital, not just as a percentage
formal enforcement action in 2006. OTS                of total assets or loans. OTS should also
examiners told us that they exercised their           communicate the need for a sound internal risk
regulatory discretion in taking informal rather       management system for higher-risk
than formal enforcement action. OTS                   concentrations.
examiners also told us that the institution
became more responsive to OTS’s supervision           OTS concurred with and has implemented our
and that OTS accomplished the same results as         recommendation by issuing further guidance
if formal enforcement action had been taken.          regarding concentrations to the thrift industry
We agreed that the informal action taken was          and to OTS staff that addresses asset and
strong; however, OTS did not follow its own           liability concentration issues described in our
written guidance to the letter.                       report and identified internally by OTS. (OIG-
                                                      09-039)
We concluded that OTS appropriately used its
authority under PCA when it issued a cease and        PFF Bank and Trust of Pomona, California
desist order in September 2008. The order,            (closed November 21, 2008; estimated loss to
among other things, reclassified Downey’s             the deposit insurance fund - $729.6 million)
capital level to adequately capitalized and
imposed restrictions even though the thrift’s         The primary causes of PFF’s failure were its
capital level at the time met the definition of       high concentration in construction and land
well-capitalized.                                     loans and related credit losses and its inadequate
                                                      capital relative to the levels of risk on its loans.
We recommended that OTS ensure that the               The drop in real estate values in PFF’s markets
recommendations from its internal assessment          exacerbated these conditions.
of the Downey failure are implemented and that
the lessons learned described in that assessment      A stronger supervisory response to PFF’s
are taken into account going forward. In this         concentration in construction and land loans
regard, OTS should direct examiners to closely        was warranted. OTS did not take timely action
review and monitor thrifts that refuse to             on PFF’s inadequate capital levels when it may
establish appropriate limits for concentrations       have made a difference. By 2008, PFF’s
that pose significant risk and pursue corrective      condition had worsened to the point that formal
action when concentration limits are not              enforcement action was warranted under OTS
reasonable. Additionally, OTS should assess the       guidance. However, OTS delayed taking formal
need for more guidance for examiners on               enforcement action, pursuing instead various
determining materiality of concentrations and         informal enforcement actions, because PFF was
determining appropriate examiner response to          in the process of being acquired by an investor.
high-risk concentrations, including when to           Although the planned acquisition ultimately did
impose absolute limits to prevent excessive           not occur, we concluded that OTS’s exercise of
concentration. OTS should formally                    regulatory discretion (taking informal rather
communicate to the industry the guidance in           than formal enforcement action) was
New Directions Bulletin 06-14, Concentrations         reasonable. We also concluded that OTS used
of Risks, as to OTS’s expectation that                its authority under PCA in an appropriate and
concentration measurements and limits be set as       timely manner.


         Treasury Office of Inspector General Semiannual Report—September 2009                         10
                                                              Significant Audits and Evaluations

                                                      from traditional mortgage lending into
OTS conducted an internal failed bank review,         mortgage banking. During this period,
which concluded that OTS did not effectively          Suburban’s acquisition, development, and
follow up on its October 2002 limited                 construction loan assets more than doubled.
examination regarding PFF’s high                      While pursuing this growth, Suburban’s board
concentrations. OTS’s review found that its           and management did not establish adequate
guidance should emphasize the need for a              internal controls over its operations and
sound internal risk management system for             accounting systems, resulting in failure to
higher-risk concentrations. We affirmed OTS’s         recognize, properly report, or correct the thrift’s
internal findings and the need for corrective         deteriorating financial position. As a result,
action.                                               when the real estate market it served took a
                                                      downturn in 2007, Suburban was particularly
In addition to implementing corrective actions        vulnerable and the losses ultimately led to its
from its internal review, we recommended that         demise.
OTS should formally communicate to the
industry the guidance in New Directions               OTS’s supervision did not adequately address
Bulletin 06-14 as to OTS’s expectation that           Suburban’s problems early enough to prevent a
concentration measurements and limits be set as       material loss to the deposit insurance fund.
a percentage of capital, not just as a percentage     OTS’s examinations and oversight identified the
of total assets or loans. OTS should also             thrift’s problems, including concerns with
communicate the need for a sound internal risk        Suburban’s aggressive growth strategy in highly
management system for higher-risk                     concentrated, speculative acquisition,
concentrations.                                       development, and construction loans and
                                                      weaknesses in its internal controls. However,
OTS concurred with and has implemented our            Suburban did not sufficiently correct problems
recommendation by issuing further guidance            and OTS did not adequately monitor the thrift’s
regarding concentrations to the thrift industry       actions through field visits to ensure that
and to OTS staff that addresses asset and             corrections were made.
liability concentration issues described in our
report and identified internally by OTS. (OIG-        OTS repeatedly recommended corrective
09-038)                                               actions through matters requiring board
                                                      attention. In July 2007, OTS took informal
Suburban Federal Savings Bank of Crofton,             enforcement action with a Troubled Condition
Maryland (closed January 30, 2009; estimated          and Directive letter. In March 2008, OTS took
lost to the deposit insurance fund - $126             formal enforcement action through a cease and
million)                                              desist order. By then it was too late to prevent
                                                      the thrift from failing. In 2007, OTS also
Suburban’s failure was caused primarily by            considered but did not assess civil money
significant loan delinquencies and losses in          penalties, deciding to pursue them only if the
speculative and high-risk acquisition,                thrift did not comply with the Troubled
development, and construction loans. Suburban         Condition and Directive letter and the cease and
pursued an aggressive growth strategy in these        desist order.
loans from 2003 until 2007, when it transitioned

         Treasury Office of Inspector General Semiannual Report—September 2009                        11
                                                              Significant Audits and Evaluations

We also concluded that OTS appropriately and          May 2009 for Enforcement Review Committee
timely initiated PCA action when Suburban fell        meetings to ensure consistent implementation
below the well-capitalized level in 2008 by           and resolution of enforcement actions. OTS
requiring Suburban to file a capital restoration      also issued guidance through a memorandum to
plan and abide by various restrictions. The           thrift chief executive officers in July 2009 on
thrift’s plan determined that the only solution to    asset and liability concentrations and related risk
its undercapitalized state was to find a merger       management practices. (OIG-09-047)
partner. When that effort failed, OTS took
timely action to appoint FDIC as receiver.            Ameribank, Inc. of Northfork, West Virginia
                                                      (closed September 19, 2008; estimated loss to
OTS conducted an internal failed bank review          the deposit insurance fund - $33.4 million)
of Suburban in accordance with its policy.
OTS’s internal review found that Suburban’s           The primary causes of Ameribank’s failure were
failure resulted primarily from ineffective           the thrift’s rapid growth in assets and an unsafe
management and board oversight in a period of         and unsound concentration in construction
aggressive, high-risk growth extending from           rehabilitation account loans resulting from its
2003 to 2007. OTS’s review concluded that it          failure to appropriately manage its relationship
(1) did not take timely enforcement action,           with a third-party mortgage broker,
(2) failed to conduct adequate follow-up with         LendingOne. Ameribank’s board and
Suburban to ensure that matters requiring board       management did not exercise sufficient
attention were resolved in a timely manner, and       oversight of the LendingOne relationship. A
(3) did not effectively control asset                 weak internal loan review process and weak
concentration by requiring concentration limits       underwriting standards also contributed to the
as a percentage of capital. Our MLR affirmed          thrift’s failure. The deterioration in the credit
OTS’s internal findings and the need for earlier      market and decline of the real estate market
corrective action.                                    exacerbated these conditions.

In addition to implementing corrective actions        OTS’s supervision of the thrift failed to prevent
from its internal review, we recommended that         a material loss to the deposit insurance fund.
OTS ensure (1) regional offices more closely          The thrift’s high-risk business strategy should
monitor and scrutinize thrift financial reports       have warranted more careful and earlier
and consider appropriate enforcement action,          attention to address its rapid growth in high-risk
including civil money penalties, when chronic         concentrations. OTS did not adequately sample
errors are found and (2) examiners conduct            the LendingOne loans prior to the April 2007
timely and appropriately scoped field visits to       examination and did not thoroughly review the
thrifts with repeat problems and elevate the          thrift’s agreement with LendingOne until 2007,
supervisory response, to include enforcement          even though Ameribank’s relationship with
action when necessary, if the field visits find       LendingOne extended back to 2003. In
that corrective action has not been taken.            addition, the LendingOne construction
                                                      rehabilitation account loans were not properly
OTS concurred with our recommendations and            categorized, and OTS’s guidance on those loans
committed to take necessary action to address         was not specific.
them. OTS issued new internal guidelines in

         Treasury Office of Inspector General Semiannual Report—September 2009                        12
                                                               Significant Audits and Evaluations

OTS also conducted an internal review which           OCC’s supervision of Ocala National Bank did
determined the main causes of Ameribank’s             not prevent a material loss to the deposit
failure as credit losses, the lack of sound risk      insurance fund. OCC identified problems early
management practices that arose primarily out         at the bank, but the actions taken by the bank
of the LendingOne relationship, and the               were not sufficient. OCC identified areas
beginning of the deterioration and turmoil in         needing correction, but its supervisory approach
the credit markets in 2007. We affirmed OTS’s         from 2005 through 2007 was primarily to rely
internal findings and need for corrective actions.    on examiner recommendations and matters
                                                      requiring attention in the reports of
In addition to implementing corrective actions        examination. From 2005 through 2006, OCC
from its internal review, we recommended that         also continued to assign the bank a CAMELS
OTS remind its examiners of guidance covering         composite rating of 2, the same rating assigned
the risks associated with rapid growth in high-       in 2004, when relatively few problems were
risk concentrations, the need to conduct more         noted. 3 This proved to be an ineffective
thorough loan sampling from the portfolio             strategy, and the bank’s problems persisted and
when a rapid increase in concentration is             worsened until its ultimate failure in 2009.
identified, and the need to assess thrift third-
party relationships. We also recommended that         OCC was reluctant to take more forceful action
OTS evaluate the need for guidance requiring          earlier because prior to 2007 the bank was
risk assessment of construction rehabilitation        profitable and asset quality problems were not
account loans as an integral part of assessing a      yet readily apparent. While we understand the
thrift’s overall risk. OTS concurred with our         judgment involved, in retrospect we believe that
recommendations. (OIG-09-036)                         a more forceful approach should have been
                                                      used sooner, given the bank’s circumstances.
   OCC-Regulated Institutions Reviewed
                                                      We also identified two other matters that
Ocala National Bank of Ocala, Florida (closed         negatively affected Ocala National Bank but
January 30, 2009; estimated loss to the deposit       financially benefited the owner and board
insurance fund - $99.6 million)                       members. First, in 2007, while the bank was
                                                      incurring a net operating loss of $2.3 million, it
Ocala National Bank failed because of
                                                      paid dividends of $3.9 million to the bank’s
significant losses within its construction and
                                                      holding company, some of which may have
land development loan portfolio. The bank
                                                      been unallowed. The owner and his family were
grew rapidly from 2004 to 2006, largely due to
                                                      the majority shareholders of the holding
the increased number and high concentration of
                                                      company. Second, the bank made payments
these loans. The bank’s management, however,
did not adequately control concentration risk or      3 CAMELS is an acronym for performance rating
ensure that credit underwriting and                   components for financial institutions: Capital adequacy,
administrative controls were adequate. The            Asset quality, Management administration, Earnings,
decline in the real estate market and the             Liquidity, and Sensitivity to market risk. Numerical values
                                                      range from 1 to 5, with 1 being the best rating and 5
secondary loan market exacerbated these               being the worst. Each institution is also assigned a
deficiencies.                                         composite rating based on an assessment of its overall
                                                      condition and level of supervisory concern.


         Treasury Office of Inspector General Semiannual Report—September 2009                                13
                                                              Significant Audits and Evaluations

totaling approximately $1 million to a company        OCC agreed that there were shortcomings in its
partly owned by the bank owner’s son and              supervision and that it is appropriate to
several bank board members to repurchase the          reinforce certain principles to its examining
company’s portion of loans, some of which             staff. OCC stated that senior management used
were nonperforming, while the bank’s financial        a national examiner conference call to illustrate
condition was deteriorating. We believe that          for examiners, through the experience of earlier
OCC should have more aggressively examined            bank failures, the importance of being assertive
both of these matters. We also noted that OCC         in identifying and following through on
guidance does not require examiners to expand         identified weaknesses in a timely manner. OCC
procedures to include a more detailed review of       indicated that it would continue this message
dividends or payments made to related                 through examiner briefings, future examiner
organizations for troubled or high-risk banks.        conference calls, and as other opportunities
                                                      arise. OCC also stated that heightened scrutiny
OCC acted forcefully against the bank in early        of certain dividends and payments to related
2008, when it appropriately used its authority        organizations is appropriate. OCC said that it
under PCA. Specifically, OCC’s February 2008          would reinforce this message to examiners
consent order reclassified Ocala National             during one of its regular national conference
Bank’s capital level to adequately capitalized,       calls. (OIG-09-043)
which prohibited the bank from accepting or
renewing brokered deposits without a waiver           National Bank of Commerce of Berkeley, Illinois
from FDIC. (In the case of Ocala National             (closed January 16, 2009; estimated loss to the
Bank, FDIC did grant a waiver in May 2008 to          deposit insurance fund - $92.5 million)
last until August 2008.)
                                                      The primary cause of National Bank of
We recommended that OCC (1) caution                   Commerce’s (NBC) failure was its significant
examiners and supervisors that decisions to           losses from preferred stock holdings in Fannie
assign the same CAMELS component and                  Mae and Freddie Mac. These losses depleted the
composite ratings as in prior examinations and        bank’s capital and strained its liquidity. In the
refrain from taking enforcement action when           end, after several attempts, NBC was unable to
conditions at a bank have deteriorated need to        raise capital or obtain financial assistance to
be well-justified and documented in the               prevent its closure.
examination workpapers and (2) remind
examiners that it is prudent to expand                We found that the scope of OCC’s
examination procedures for troubled or high-          examinations of NBC appeared comprehensive
risk banks to review the appropriateness of           as indicated by the reports of examination,
(a) dividends and (b) payments to related             although workpaper evidence supporting the
organizations, particularly when the dividends        examination procedures performed was
or payments may benefit bank management and           somewhat limited. OCC used its authority
board members. In this regard, OCC should             under PCA in an appropriate and timely manner
reassess its examination guidance concerning          but those actions ultimately did not save the
review of dividends and related organizations.        bank.




         Treasury Office of Inspector General Semiannual Report—September 2009                       14
                                                              Significant Audits and Evaluations

All things considered, we believe that NBC            IRS spending authority under the American
acted in good faith when it invested in the           Recovery and Reinvestment Act of 2009. In
government-sponsored-enterprise securities.           addition to our mandated work, we consider
Additionally, we have no reason to fault OCC’s        our Recovery Act oversight a high-priority.
supervision of the institution as it relates to the
bank’s investment practices. Current law and          Treasury Has Made Progress in Implementing a
regulatory standards permit banks to purchase         Specified Energy Property Grant Program
government-sponsored-enterprise securities
                                                      Section 1603 of the Recovery Act provides for
without limitation. What happened to Fannie
                                                      grants, in lieu of tax credits, to encourage
Mae and Freddie Mac during the economic
                                                      taxpayers’ continued investment in renewable
crisis, including the rapid decline in the value of
                                                      energy sources and provides for reimbursement
their securities, was unprecedented. We
                                                      of a portion of the expenses incurred for
reported that retrospectively, the lesson to be
                                                      placing eligible property in service. Treasury
taken from the NBC material loss is that banks
                                                      initially estimated that approximately $1 billion
and regulators must be cognizant that securities
                                                      would be reimbursed under this new program.
not backed by the full faith and credit of the
                                                      The program is administered by Treasury’s
U.S. government entail risk and that high
                                                      Office of the Fiscal Assistant Secretary (OFAS).
concentrations of such holdings elevate that
risk.
                                                      Although the American Recovery and
                                                      Reinvestment Act was intended to jumpstart the
We recommended that OCC (1) conduct a
                                                      economy, we found—more than 5 months after
review of investments held by national banks
                                                      the act was signed into law—that while
for any potential high-risk concentrations and
                                                      Treasury had made progress, a fully operational
take appropriate supervisory action to mitigate
                                                      program had yet to be established to meet the
the risk and (2) reassess examination guidance
                                                      Recovery Act and OMB requirements. Among
regarding investment securities, including
                                                      our concerns was OFAS’s delay in finalizing an
government-sponsored-enterprise securities.
                                                      agreement with the Department of Energy to
OCC has taken steps to address our
                                                      provide certain services in connection with the
recommendations and plans to (1) reassess
                                                      review of applications for reimbursement.
examination guidance regarding investment
                                                      OFAS also did not perform a proper risk
securities, including government-sponsored-
                                                      assessment as required by OMB guidance or
enterprise securities, and (2) issue a supervisory
                                                      explain its current staffing level to implement
memorandum containing supplemental
                                                      and operate the program.
examiner guidance on investment securities risk
management practices. (OIG-09-042)
                                                      To address these matters, we recommended that
                                                      OFAS (1) follow OMB guidance for identifying
Recovery Act Audits                                   and prioritizing potential risks to the new
                                                      program; (2) finalize its agreement with the
During the semiannual period, we completed
                                                      Department of Energy and ensure that eligibility
one audit described below and initiated a
                                                      requirements are consistent with IRS
number of other audits as part of our oversight
                                                      requirements for tax credits; and (3) identify and
of an estimated $22 billion in Treasury’s non-
                                                      address workforce needs to properly implement


         Treasury Office of Inspector General Semiannual Report—September 2009                       15
                                                              Significant Audits and Evaluations

the specified energy program and implement a          to backdating the transaction and informed the
process to continuously evaluate those needs          thrift management not to do so, but the thrift
throughout the program’s life. OFAS                   backdated it anyway. In this case and in two
management concurred with two                         other cases in which OTS became aware of the
recommendations and partially concurred with          backdating after the fact, OTS allowed the
the third. With respect to the partially concurred    backdating to remain. In one of these two other
recommendation, OFAS agreed that it was               cases, OTS did not become aware of the
important to identify and address workforce           backdating until after the period for amending
needs and stated that it would continue to            the thrift’s financial reporting had closed. For
evaluate its workforce. However, it also stated       the sixth thrift that backdated a transaction,
that the current team of four was adequate.           OTS directed the thrift to reverse the
(OIG-09-040)                                          transaction when it became aware of the
                                                      backdating. In January 2009, OTS issued
Subsequent to our report, Treasury revised the        guidance on the proper recognition of capital
estimate of potential reimbursements under the        contributions. OTS management was also
program to $16.5 billion.                             responsive to our other recommendations.
                                                      (OIG-09-037)
Other Performance Audits                              BankUnited, FSB, failed on May 21, 2009, after
During this semiannual period, we completed a         our report was issued. The estimated loss to the
joint audit with two other Intelligence               deposit insurance fund at the time of failure was
Community OIGs of a classified program and            $4.9 billion. We are performing an MLR of
issued a classified report. The audit was initiated   BankUnited, which was in progress at the end
at the request of the Congress. Described below       of this semiannual reporting period.
are other performance audits completed during
the period.                                           City National Corporation Capital Purchase
                                                      Program Case Study
OTS Involvement With Backdated Capital
                                                      As part of our interim oversight of TARP done
Contributions by Thrifts                              at the request of Secretary Paulson until the
We reviewed the circumstances surrounding the         office of the special inspector general for TARP
backdating of capital contributions to prior          was in place, we initiated an audit of the
periods at six thrifts and concluded that the         selection of the City National Corporation (City
backdating of these transactions was                  National), the one-bank holding company for
inappropriate for all six thrifts.                    City National Bank located in Los Angeles,
                                                      California, for participation in CPP. The
For one thrift, BankUnited, FSB, the OTS              purpose of our work was to (1) provide a case
senior deputy director directed the regional          study of the approval process used by the
office to instruct the holding company to             Office of Financial Stability for allowing City
contribute capital and backdate the transaction.      National’s participation in CPP and
For another thrift, IndyMac Bank, FSB, an OTS         (2) determine the controls in place to ensure
regional director authorized the backdating of        that the approval of this financial institution was
the transaction. For a third thrift, OTS objected


         Treasury Office of Inspector General Semiannual Report—September 2009                        16
                                                              Significant Audits and Evaluations

consistent with TARP objectives. City National        agencies since 1999 to perform the contracting
received CPP funding of $400 million.                 officer functions for these contracts were in the
                                                      best interest of the government. With respect to
Based on our review, City National met the            the $3.7 million Kearney & Company contract,
required criteria to receive CPP funding. At the      we concluded that the Fund followed
time of the corporation’s approval, limited           requirements.
policies and procedures were in place relating to
the review and approval of TARP applications.         Fund management concurred with our
We determined that OCC and the Office of              recommendations to address these contract
Financial Stability followed those limited            administration deficiencies and planned to
policies and procedures for approving City            complete corrective actions by March 2010.
National for CPP. The Office of Financial
Stability concurred with our findings and stated      As another issue that surfaced during our
that additional controls for processing CPP           review, we found that the Fund did not
applications had been implemented after City          document its justification for a noncompetitive
National was approved to receive funding.             promotion of a Fund employee to GS-14 in
(OIG-09-044)                                          July 2006 and was unable to provide us with the
                                                      employee’s related position description during
Community Development Financial Institutions          our review. Fund management agreed to
Fund Contract Administration and Personnel            implement controls to prevent a reoccurrence
Management Practices Need Improvement                 and ensure valid position descriptions are on file
                                                      for all employees. (OIG-09-048)
We performed an audit of the Community
Development Financial Institutions Fund to
                                                      The Mint Subleased Excessive Space in Its
determine whether the Fund’s contract
                                                      Headquarters Building (Corrective Action
administration practices for its information
                                                      Verification on OIG-02-074)
technology development and support contracts
with General Dynamics and Kearney &                   In March 2002, we reported that the Mint had
Company complied with applicable regulations.         leased excessive space for its headquarters
Our audit was requested by the Fund Director.         operations and recommended, among other
                                                      things, that the Mint sublease the excessive
The Fund could not provide documentary                space. In a follow-up review, we found that the
evidence supporting the contract administration       Mint had consolidated its headquarters
activities performed by Fund contracting officer      operations, sublet more space to federal
technical representatives for the General             agencies, and, during our review, awarded a
Dynamics contracts. As a result, the Fund could       sublease for the remaining excess space. We
not demonstrate that the $19 million in contract      also reported that particular space had remained
dollars for information technology support            vacant for 12 years, representing a loss of
services by the contractor were spent                 approximately $5 million in potential rent
responsibly during the 9 year period from 1999        revenue during the period. (OIG-09-046)
to 2008. Additionally, the Fund could not
provide documentation showing how it
determined that using three different federal


         Treasury Office of Inspector General Semiannual Report—September 2009                       17
                                                      stringent internal controls to prevent similar
Significant Investigations                            compromises in the future.
Guilty Plea Entered by Derrick Hampton
                                                      U.S. Mint Employee Charged With Federal
On June 12, 2009, Derrick Hampton, who was
                                                      Fraud and Theft Violations
formerly employed as a secretary by OCC, pled
guilty to federal theft violations stemming from      On July 23, 2009, a Mint supply specialist was
his scheme to defraud OCC by exploiting a             arraigned in the U.S. District Court for the
weakness he found in its travel management            Eastern District of Pennsylvania after being
system. Immediately following the plea,               charged with federal violations related to his
Hampton was sentenced to 60 days of house             conflicts of interest, false statements, honest
arrest, 36 months of supervised probation,            services fraud, wire fraud, and mail fraud. The
25 hours of community service and was ordered         employee pled not guilty to the charges and was
to pay $25,311 in restitution to OCC. This            released on a $20,000 bond. The supply
successful court action concludes the                 specialist was charged after our investigation
investigation that we initiated after an OCC          revealed that the employee structured office
internal review indicated that Hampton may            supply orders to total approximately $4,999
have been reimbursed for travel expenses that         (one dollar less than the single-purchase limit)
had never been incurred. Our investigation            to deliberately circumvent the competitive
identified 19 fraudulent travel claims, totaling      bidding process and direct purchases to a
$25,311 that OCC paid to the employee. As a           company owned by a former Mint employee.
result of the investigation and internal review,
OCC implemented internal controls intended to
better identify potential fraudulent claims and       The following are updates of significant
prevent future exploitation of vulnerabilities.       investigative activities that occurred in prior
                                                      semiannual reporting periods.
Subject Indicted After Exploiting FMS Systems
On July 9, 2009, Michael Lunsford was indicted        Court Actions Progress in Postal Theft
in Marion County, Indiana, for 10 state               Conspiracy Targeting Treasury Checks
violations related to financial fraud and theft.      As previously reported, 13 subjects were
The charges followed our investigation that           indicted on June 19, 2008, for federal mail
revealed that Lunsford used a compromised             fraud, identity theft, aiding and abetting, and
routing transit number belonging to FMS to            forgery violations stemming from the subject’s
purchase several new cars from a local auto           theft and conversion of Treasury checks. The
dealership. We initiated the investigation after      indictment resulted from a joint investigation
the Treasury Inspector General for Tax                conducted by our office, the U.S. Secret Service,
Administration referred information to us that a      and the U.S. Postal Inspection Service, which
Treasury state tax offset program routing transit     revealed an extensive conspiracy to steal
number had been compromised by numerous               Treasury checks from the U.S. mail and convert
individuals, including Lunsford. As a result of       them to cash through the use of stolen
the events that led to our investigation, FMS         identities. To date, 11 defendants have pled
independently instituted a series of more


         Treasury Office of Inspector General Semiannual Report—September 2009                          18
                                                                          Significant Investigations

guilty to their participation in this scheme and 6         • On August 7, 2009, Michael Hawkins
have been sentenced.                                            was sentenced to 4 years of federal
                                                                incarceration followed by 3 years of
Updates                                                         supervised release for conspiracy to
    • On March 2, 2009, Chamarko Amin was                       commit mail fraud, forged endorsement
        arrested in Washington, DC. Amin had                    on a Treasury check, and aggravated
        been a fugitive since his 2008                          identity theft in connection with the
        indictment. On August 7, 2009, Amin                     scheme.
        pled guilty to conspiracy to commit mail
        fraud and aggravated identity theft in         Sentencing for Bank Fraud and Identity Theft
        connection with the scheme and is              As previously reported, our office and the U.S.
        scheduled to be sentenced on                   Secret Service conducted a joint investigation
        October 23, 2009.                              that revealed that Osman Jalloh used false
                                                       identification documents to fraudulently open
    • On July 22, 2009, Leonard Jenkins pled           numerous accounts at Bank of America and
        guilty to mail fraud, theft of mail, and       Chevy Chase Bank. Subsequently, Jalloh used
                                                       those accounts to successfully negotiate 10
        aggravated identity theft in connection
                                                       Treasury checks, along with numerous personal
        with his participation in a scheme in
                                                       checks, that had been stolen from the New
        which he used his position as a mail
                                                       Jersey area. The joint investigation identified 22
        carrier to steal over $100,000 of
                                                       victims, with total attempted fraud losses of
        Treasury checks from the U.S. mail.            $295,453, and resulted in Jalloh’s August 25,
        Jenkins faces a maximum sentence of 20         2008, indictment in the District of Maryland for
        years in prison for conspiracy to commit       his participation in the stolen check scheme.
        mail fraud, 5 years in prison for theft of
        mail by a postal employee, and a               Update
        mandatory 2 years in prison consecutive
                                                       On May 1, 2009, Jalloh pled guilty to one count
        to any other sentence imposed for
                                                       of bank fraud. Following his plea, on July 20,
        aggravated identity theft. Sentencing is
                                                       2009, Jalloh was sentenced to 48 months of
        scheduled for November 3, 2009.
                                                       federal incarceration followed by 5 years of
                                                       supervised release.
    • On August 6, 2009, Tandria Boyd was
        convicted by a jury on charges related to
        conspiracy to commit mail fraud, mail
        fraud, forged endorsement on a
        Treasury check, and aggravated identity
        theft for her role in the scheme. Boyd’s
        sentencing is pending.




          Treasury Office of Inspector General Semiannual Report—September 2009                        19
                                                       OIG Conducts Inquiries at Request of Senator
Other OIG Accomplishments                              Grassley
and Activity                                           During this reporting period, the OIG
                                                       completed two inquires at the request of
Inspector General Thorson Testifies on the
                                                       Senator Charles Grassley, Ranking Minority
Material Loss Review Threshold
                                                       Member of the Senate Finance Committee. The
On May 5, 2009, Inspector General Thorson              first concerned the issuance, in October 2008,
testified before the Subcommittee on Oversight         of IRS Notice 2008-83, which provided
and Investigations of the House Committee on           guidance on the application of Internal Revenue
Financial Services in a hearing titled The Role of     Code Section 382(h) regarding the recognition
Inspectors General: Minimizing and Mitigating Waste,   of losses incurred by failed banks that were
Fraud and Abuse. The inspectors general for the        acquired by other banks. This guidance
FDIC and the Federal Reserve System also               engendered much critical comment in the
testified at the hearing. The subject of Mr.           industry and in Congress, and was ultimately
Thorson’s testimony was the threshold for              nullified in the American Recovery and
MLRs of failed banks. In January 2009, the             Reinvestment Act. The OIG inquiry set out the
three inspectors general sent a letter to the          process by which the guidance was developed
committee suggesting that the current threshold        and promulgated by the IRS and the
of $25 million, established in 1991, be raised to      Department’s Office of Tax Policy.
between $300 million and $500 million, which
would free up resources for other work.                The second inquiry focused on the role of the
                                                       Department’s Office of General Counsel in
In his testimony, Mr. Thorson stressed the             reviewing the legal underpinnings of the
importance of MLRs and described the impact            retention bonuses paid to certain employees of
of the unprecedented number of MLRs during             the Financial Products subsidiary of AIG, a
the current crisis to our office’s ability to do       company which had received billions of dollars
other work. For example, work deferred                 in federal assistance after incurring large losses.
includes all work on Treasury’s anti-money             This event had also engendered much critical
laundering and terrorist financing mission. Mr.        comment. The OIG inquiry determined that the
Thorson also expressed support for increasing          Office of General Counsel reviewed and
the MLR threshold.                                     concurred with the opinion of a private law firm
                                                       which concluded that applicable state law
Congress is considering legislation, H.R. 3330,        compelled the payment of the bonuses.
that would, among other things, raise the
threshold loss for MLRs to $200 million. As of         OIG Hosts Delegation From Vietnam
September 30, 2009, H.R. 3330 had passed the
                                                       In April 2009, Inspector General Eric Thorson
House and has been referred to the Senate
                                                       and OIG executives met with a delegation from
Committee on Banking, Housing, and Urban
                                                       Vietnam to discuss the mission of U.S.
Affairs.
                                                       government inspectors general and Treasury
                                                       OIG. Members of the delegation from the
                                                       Government Inspectorate of Vietnam were Mr.


          Treasury Office of Inspector General Semiannual Report—September 2009                        20
                                                      Other OIG Accomplishments and Activity

Lam Ngoc Bui, Acting Director General                 FAEC initiatives. Marla Freedman, Assistant
(Bureau II); Mr. Son Hung Dang, Division              Inspector General for Audit, serves on the
Head, Anti-Corruption Bureau; Mr. Toan                executive board, which coordinates the activities
Khanh Dang, Deputy Director General                   of FAEC’s working committees. Joel Grover,
(Department II); Mr. Cong Trong Ha, Director          Deputy Assistant Inspector General for
General, Department for International                 Financial Management and Information
Cooperation; Dr. Minh Van Tran, Deputy                Technology Audits, serves as co-chair of the
Director General (Bureau III); Mr. Truyen Van         FAEC Financial Statements Committee and is
Tran, General; and Ms. Hoa Nhu Trinh,                 actively involved in developing and coordinating
Division Head, Department for International           FAEC positions on a variety of accounting and
Cooperation. Also in the delegation were Mr.          auditing issues related to federal financial
Trac Ngoc Kieu, Vice Chairman, Steering               reporting.
Committee on Prevention and Combat Against
Corruption; Mr. Truong Xuan Lam, Chief                Mr. Grover is also a member of the
Inspector of Ho Chi Minh City; and Mr. Ngoc           Government Performance and Accountability
Hong Nguyen, Vice Chairman, Subcommittee              Committee of the American Institute of
on Inspection, Party Committee of Ho Chi              Certified Public Accountants (AICPA). The
Minh City. Treasury’s Departmental Offices            committee’s mission is to (1) promote greater
International Visitors Program facilitated the        government accountability and integrity of
meeting.                                              government operations, information, and
                                                      information systems; (2) promote and
Meeting With Representative From Bhutan               encourage increased participation and
Commission                                            involvement by certified public accountants
                                                      (CPA) in government within AICPA;
In May 2009, Deputy Inspector General Dennis
                                                      (3) enhance the professional image and value of
Schindel and Counsel Rich Delmar met with
                                                      CPAs in government; (4) provide advice and
Ms. Neten Zangmo, chair of the Bhutan Anti-
                                                      counsel to AICPA on the needs of CPAs in
Corruption Commission, to provide
                                                      government, and (5) serve as a conduit for
information on investigating allegations of
                                                      communications among CPAs in government,
corruption and other misconduct.
                                                      AICPA, and other professional organizations.
                                                      Mr. Grover is also co-chair of the Maryland
OIG Executives Participate in Professional            Association of Certified Public Accountants
Audit Organizations                                   Members in Government Committee. The
The Federal Audit Executive Council (FAEC)            committee’s activities include sponsoring an
consists of audit executives from the OIG             annual training conference on government/not-
community and other federal audit                     for-profit accounting and auditing issues.
organizations. Its purpose is to discuss and
coordinate issues affecting the federal audit
community, with special emphasis on audit
policy and operations of common interest to
FAEC members. During the period, Treasury
OIG continued to actively support a number of


         Treasury Office of Inspector General Semiannual Report—September 2009                      21
Statistical Summary
Summary of OIG Activity
For the 6 months ended September 30, 2009

                                                                                      Number or
OIG Activity                                                                          Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                    1
Instances where information was refused                                                               0
Office of Audit Activities
Reports issued (audits and evaluations)                                                              19
Disputed audit recommendations                                                                        0
Significant revised management decisions                                                              0
Management decision in which the IG disagrees                                                         0
Monetary benefits (audit)
Questioned costs                                                                              $995,367
Funds put to better use                                                                              0
Revenue enhancements                                                                                 0
Total monetary benefits                                                                       $995,367
Office of Investigations Activities
Allegations
Total allegations received and processed                                                          135
Cases—investigations and inquiries (including joint investigations)
Opened in the reporting period                                                                     27
Closed in the reporting period                                                                     32
Total cases in progress as of 9/30/2009                                                           164
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                    16
Cases accepted for prosecution and/or litigation                                                     0
Arrests                                                                                              2
Indictments/informations                                                                             3
Convictions (by trial and plea)                                                                     16
Fines/restitution/recoveries (including joint investigations)                                 $234,504
Administrative sanctions
Total adverse personnel actions taken                                                                27
Oversight activities
Prevention and detection briefings                                                                    2
Quality assessment reviews                                                                            0
Management implication reports                                                                        0




              Treasury Office of Inspector General Semiannual Report—September 2009                22
                                                                                 Statistical Summary

Significant Unimplemented Recommendations
For reports issued prior to October 1, 2008

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number            Date     Report Title and Recommendation Summary
OIG-06-030        05/06    Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                           Bank Secrecy Act Data but Challenges Remain
                           FinCEN should enhance the current FinCEN database system or acquire a
                           new system. An improved system should provide for complete and accurate
                           information on the case type, status, resources, and time expended in
                           performing the analysis. This system should also have the proper security
                           controls to maintain integrity of the data. (1 recommendation)


OIG-07-048        9/07     Foreign Assets Control: Actions Have Been Taken to Better Ensure Financial
                           Institution Compliance With OFAC Sanction Programs, But Their Effectiveness
                           Cannot Yet Be Determined
                           The OFAC Director should determine whether MOUs should be
                           established with self-regulatory organizations and IRS for sharing
                           information on financial institutions for which they have OFAC oversight
                           responsibility. (1 recommendation)


OIG-08-008        11/07    Management Letter for Fiscal Year 2007 Audit of the Federal Financing Bank’s
                           Financial Statements
                           The Federal Financing Bank should do the following: (1) Continue its
                           efforts in developing a system development methodology and a
                           configuration management plan. The system development methodology
                           should describe programming naming conventions, the system development
                           phases and what is to be performed in each, procedures for handling
                           emergency programming changes, application test procedures, and
                           development, test and production of access controls lists, etc., as
                           documented in NIST SP 800-64. (2) Follow through with its plan to upgrade
                           the LMCS Database Management System to a supported version of Oracle.
                           (3) Configure LMCS to require users to use at least eight-character
                           passwords and implement all of the required configurations of Treasury
                           Directive Publication 85-01, including complex passwords and user session


         Treasury Office of Inspector General Semiannual Report—September 2009                           23
                                                                                  Statistical Summary

                         timeouts, or perform an evaluation to determine the risk of not having all of
                         the required configurations implemented. (3 recommendations)


OIG-08-018      12/07    Management Letter for the Fiscal Year 2007 Audit of the United States Mint’s
                         Financial Statements
                         Mint management should establish and implement policies and procedures
                         for the retirement of assets to ensure that Excess Property forms are
                         properly completed, filed, and available for examination for a reasonable
                         time period after the retirement transaction. (1 recommendation)


OIG-08-031      04/08    Review of Treasury’s Failure to Provide Congress Required Quadrennial Reports in
                         1998 and 2002 on Foreign Acquisitions and Industrial Espionage Activity Involving
                         U.S. Critical Technology Companies
                         Treasury should ensure that internal Committee on Foreign Investments in
                         the United States guidance for implementing the Foreign Investment and
                         National Security Act of 2007 is established and includes procedures for
                         preparing and issuing the annual report to Congress on foreign investment
                         in critical technology companies and industrial espionage activities.
                         (1 recommendation)


OIG-08-036      06/08    BEP Needs to Enforce and Strengthen Controls on Its Eastern Currency Facility to
                         Prevent and Detect Employee Theft
                         BEP should direct BEP management to (1) establish clear, written policies
                         and procedures that specify assignment of responsibility and actions to be
                         taken when discrepancies are found in the production process and
                         (2) ensure that employees, including supervisors, are trained and periodically
                         retrained in product security-related policies and procedures.
                         (2 recommendations)


OIG-08-046      09/08    Federal Information Security Management Act Fiscal Year 2008 Performance Audit
                         OIG recommended that (1) OTS continue with bureau plans to resolve the
                         security weaknesses identified during the certification and accreditation
                         process by the end of the interim authorization period, December 31, 2008,
                         and achieve a full authority to operate during the fiscal year 2009 FISMA
                         reporting period, and (2) Departmental Offices, FinCEN, OIG, and OTS
                         work to implement Federal Desktop Core Configurations secure



       Treasury Office of Inspector General Semiannual Report—September 2009                             24
                                                                                             Statistical Summary

                                configuration baselines on all Microsoft Windows XP workstations.
                                (2 recommendations)


OIG-CA-08-012 09/08             FY 2008 Evaluation of Treasury’s FISMA Implementation for Its Non-IRS Non-
                                Intelligence National Security Systems
                                The Treasury Chief Information Officer should ensure implementation of
                                Federal Desktop Core Configuration security settings on all applicable non-
                                intelligence National Security Systems in accordance with bureau-established
                                plans. (1 recommendation)




Summary of Instances Where Information Was Refused
April 1, 2009, through September 30, 2009

There were no such instances during this period.



Listing of Audit and Evaluation Reports Issued
April 1, 2009, through September 30, 2009

Financial Audits and Reports on the Processing of Transactions by BPD
Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the Public Debt’s Administrative
Resource Center for the Period July 1, 2008, to June 30, 2009, OIG-09-045, 8/28/09

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the Public Debt's Trust
Funds Management Branch for the Period August 1, 2008, to July 31, 2009, OIG-09-049, 9/23/09

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the Public Debt's Federal
Investments Branch for the Period August 1, 2008, to July 31, 2009, OIG-09-050, 9/23/09

Information Technology Audits and Evaluations
Fiscal Year 2009 Evaluation of Treasury’s FISMA Implementation for Its Intelligence Program, OIG-CA-09-011,
7/17/09

FMS’s Database Management Systems Have Weaknesses in Key Controls, OIG-CA-09-012, 9/29/09


          Treasury Office of Inspector General Semiannual Report—September 2009                                         25
                                                                                         Statistical Summary


Fiscal Year 2009 Audit of Treasury's FISMA Implementation for Its Non-IRS Collateral National Security Systems,
OIG-09-051, 9/30/09

Performance Audits
Safety and Soundness: Material Loss Review of Ameribank, Inc., OIG-09-036, 4/7/09

Safety and Soundness: OTS Involvement With Backdated Capital Contributions by Thrifts, OIG-09-037, 5/21/09

Safety and Soundness: Material Loss Review of PFF Bank and Trust, OIG-09-038, 6/12/09

Safety and Soundness: Material Loss Review of Downey Savings and Loan, FA, OIG-09-039, 6/15/09

Joint Review of a Classified Program, 6/30/09

Treasury Has Made Progress in Implementing the Specified Energy Property Grant Program, OIG-09-040, 8/5/09

Safety and Soundness: Material Loss Review of National Bank of Commerce, OIG-09-042, 8/6/09

Safety and Soundness: Material Loss Review of Ocala National Bank, OIG-09-043, 8/26/09

Safety and Soundness: City National Corporation Capital Purchase Program Case Study, OIG-09-044, 8/27/09

General Management: The Mint Subleased Excessive Space in Its Headquarters Building (Corrective Action Verification
on OIG-02-074), OIG-09-046, 9/3/09

Safety and Soundness: Material Loss Review of Suburban Federal Savings Bank, OIG-09-047, 9/11/09

CDFI Fund Contract Administration and Personnel Management Practices Need Improvement, OIG-09-048,
9/17/09

Supervised Contract Audit
Contract Audit: Spectra Systems Corporation’s Cost Proposal in Response to Solicitation TEP-09-007, OIG-09-
040A, 7/15/09, $995,367 Q




          Treasury Office of Inspector General Semiannual Report—September 2009                                 26
                                                                                                    Statistical Summary

Audit Reports Issued With Questioned Costs
April 1, 2009, through September 30, 2009

                                                                               Total         Total            Total
                                                                               No. of        Questioned       Unsupported
Category                                                                       Reports       Costsa           Costsa
For which no management decision had been made by beginning of reporting
period                                                                                   2         $461,973                 0
Which were issued during the reporting periodb                                           1         $995,367                 0
  Subtotals                                                                              3       $1,457,340                 0
For which a management decision was made during the reporting period                     2        $461,973                  0
  Dollar value of disallowed costs                                                       2         $461,973                 0
  Dollar value of costs not disallowed                                                   0                0                 0
For which no management decision was made by the end of the reporting period             1         $995,367                 0
For which no management decision was made within 6 months of issuance                    0                0                 0
a   Questioned costs include unsupported costs.
b   Audit was performed by the Defense Contract Audit Agency.




Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
April 1, 2009, through September 30, 2009

At the beginning of the period, there were no audit reports from prior periods pending a management
decision on recommendations that funds be put to better use. There were also no audit reports issued
during this period with recommendations that funds be put to better use.



Previously Issued Audit Reports Pending Management Decisions (Over 6
Months)
As of September 30, 2009

There were no audit reports issued before this semiannual reporting period that are pending a
management decision.




                Treasury Office of Inspector General Semiannual Report—September 2009                                   27
Significant Revised Management Decisions
April 1, 2009, through September 30, 2009

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
April 1, 2009, through September 30, 2009

There were no management decisions this period with which the IG was in disagreement.




         Treasury Office of Inspector General Semiannual Report—September 2009          28
References to the Inspector General Act
                                                             Requirement                                                   Page
Section 4(a)(2)     Review of legislation and regulations                                                                       22
Section 5(a)(1)     Significant problems, abuses, and deficiencies                                                            6-19
Section 5(a)(2)     Recommendations with respect to significant problems, abuses, and deficiencies                            6-19
Section 5(a)(3)     Significant unimplemented recommendations described in previous semiannual reports                       23-25
Section 5(a)(4)     Matters referred to prosecutive authorities                                                                 22
Section 5(a)(5)     Summary of instances where information was refused                                                          25
Section 5(a)(6)     List of audit reports                                                                                    25-26
Section 5(a)(7)     Summary of significant reports                                                                            6-19
Section 5(a)(8)     Audit reports with questioned costs                                                                         27
Section 5(a)(9)     Recommendations that funds be put to better use                                                             27
Section 5(a)(10)    Summary of audit reports issued before the beginning of the reporting period for which no management        27
                    decision had been made
Section 5(a)(11)    Significant revised management decisions made during the reporting period                                  28
Section 5(a)(12)    Management decisions with which the IG is in disagreement                                                  28
Section 5(a)(13)    Instances of unresolved FFMIA noncompliance                                                                 7
Section 5(d)        Serious or flagrant problems, abuses, or deficiencies                                                     N/A
Section 6(b)(2)     Report to Secretary when information or assistance is unreasonably refused                                N/A




             Treasury Office of Inspector General Semiannual Report—September 2009                                                29
Abbreviations
AICPA          American Institute of Certified Public Accountants
BPD            Bureau of the Public Debt
BSA            Bank Secrecy Act
CPA            certified public accountant
CPP            Capital Purchase Program
EESA           Emergency Economic Stabilization Act
FAEC           Federal Audit Executive Council
FDIC           Federal Deposit Insurance Corporation
FDICIA         Federal Deposit Insurance Corporation Improvement Act
FinCEN         Financial Crimes Enforcement Network
FISMA          Federal Information Security Management Act
FMS            Financial Management Service
GAO            Government Accountability Office
IPA            independent public accountant
IRS            Internal Revenue Service
MLR            Material Loss Review
OCC            Office of the Comptroller of the Currency
OFAC           Office of Foreign Assets Control
OFAS           Office of the Fiscal Assistant Secretary
OIG            Office of Inspector General
OMB            Office of Management and Budget
OTS            Office of Thrift Supervision
PCA            Prompt Corrective Action
TARP           Troubled Assets Relief Program




         Treasury Office of Inspector General Semiannual Report—September 2009   30
This page intentionally left blank.
View of Alexander Hamilton statue from south side of main Treasury building
         

     
            contact us
     

    Headquarters
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.,
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    740 15th Street, N.W., Suite 500
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421

    Office of Counsel
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
    Phone: (202) 927-0650;
    Fax: (202) 927-5418                Treasury OIG Hotline
    Office of Management               Call Toll Free: 1.800.359.3898
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
                                       Treasury OIG Web Page
    Phone: (202) 927-5200;
    Fax: (202) 927-6492                OIG reports and other information are now available via the
                                       Internet. The address is
    Eastern Field Audit Office         http://www.treas.gov/inspector-general
    408 Atlantic Avenue, Room 330
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;
    Fax (617) 223-8651
